March 19, 2008

KATHLEEN AINSWORTH
VICE PRESIDENT, RETAIL OPERATIONS

ALL VICE PRESIDENTS, AREA OPERATIONS

SUBJECT:          Audit Report – Local Stamps on Consignment Programs
                  (Report Number MS-AR-08-003)

This report presents the results of our self-initiated review of Local Stamps on
Consignment (SoC) Programs (Project Number 07RG008MS000). Our objectives were
to determine whether Retail Access Channels officials terminated all local SoC
agreements and properly accounted for stamp shipments to consignees. Click here or
go to Appendix A for additional information about this audit.

Despite instructions from U.S. Postal Service senior management from 2004 through
2007, Retail Access Channels officials did not terminate all local SoC agreements and
properly account for stamp shipments to consignees. In addition, Retail Associates1
(RA) incorrectly recorded transactions in the account used by the Postal Service for
revenue generated by local SoC programs. These transactions totaled $1.6 million in
fiscal year (FY) 2007 and $3.64 million in FY 2006. Our audit identified $817,012 in
recoverable revenue loss and $51,693 in unrecoverable revenue loss, which we will
report in our Semiannual Report to Congress.

Terminating Agreements and Properly Accounting for Stamp Consignments

Retail Access Channels officials had not terminated 392 local SoC agreements.
Seventy-three of the 392 accounts owe the Postal Service $827,672 for stamp
consignments. The accounts for 71 of the 73 consignees have been inactive for at least
3 months, and they owe the Postal Service $817,012 for stamp consignments. The
other two consignees obtained stamp consignments from the Xxxxxxxxxx Post Office in
the Houston District on November 14 and December 10, 2007; they owe the Postal
Service $10,660. We also computed forfeited interest of $51,693 between January 1,
2006, and December 31, 2007, for one past due account that has owed the Postal
Service $417,600 since January 2001. The $817,012 that the inactive accounts owe
the Postal Service is recoverable revenue loss and the forfeited interest of $51,693 is

1
  A Retail Associate is any field employee authorized to perform financial transactions at a retail postal unit, such as
full and part-time Sales and Service Associates, Window Clerks, or Window Distribution Clerks.
Local Stamps on Consignment                                                                               MS-AR-08-003
 Programs


unrecoverable revenue loss, which we will report in our Semiannual Report to
Congress.

Headquarters Retail Access Channels officials stated that area and district officials did
not always provide the documentation needed to collect the amounts that consignees
owe the Postal Service and terminate existing local SoC agreements. Click here or go
to Appendix B for our detailed analysis of this issue.

We recommend the Vice Presidents, Area Operations, direct the retail and marketing
managers for each Postal Service cluster2 to:

    1. Provide information about their local Stamps on Consignment programs,
       including existing agreements and amounts that consignees owe the Postal
       Service for stamp consignments, to the Manager, Retail Access Channels.

We also recommend the Vice President, Retail Operations, direct the Manager, Retail
Access Channels, to:

    2. Terminate existing local Stamps on Consignment agreements, incorporate them
       into the national program, and collect the past due amounts that consignees owe
       the Postal Service for stamp consignments.

Stamps on Consignment Revenue Account Was Overstated

RAs incorrectly recorded $1.6 million in FY 2007 and $3.64 million in FY 2006 in the
account used by the Postal Service to track revenue from the local SoC programs.
District and unit officials stated that RAs incorrectly recorded transactions related to
Account Identifier Code3 (AIC) XXX, Postage Stock Sales, in AIC XXX, Stamps on
Consignment Replenishment Sales. In addition, officials stated they identified a
system-wide deficiency that resulted in incorrect reporting. Headquarters Retail Access
Channels and Finance officials worked together to deactivate AIC XXX on April 27,
2007, by upgrading the POS ONE system software. This upgrade eliminated the
incorrect option, so area and district officials can no longer record transactions in
AIC XXX. Because corrective action has already been taken and post offices and
postal retail units can no longer record amounts in AIC XXX, we are not making a
recommendation in this area. Click here or go to Appendix B for our detailed analysis of
this issue.



2
  The Postal Service has 80 district offices, each led by a district manager who is responsible for retail, delivery, and
administrative support for a network of local post offices and their employees. Senior plant managers are responsible
for mail processing at one or more mail processing plants that sort the mail for local post offices within each district’s
service area. Each district manager and senior plant manager reports to one of nine vice presidents of area
operations. Each district office and the processing facilities in its service area constitute a performance cluster.
3
  The AIC is a three-digit code that assigns financial transactions to the proper account in the general ledger. Each
AIC is assigned to a corresponding general ledger account.




                                                            2
Local Stamps on Consignment                                                   MS-AR-08-003
 Programs


Management’s Comments

In general, management agreed with our findings and recommendations. Area
management and Retail Access Channels officials plan to terminate all of the local SoC
agreements we identified and settle consignees’ past due amounts by September 30,
2008.

However, some area officials disputed their total past due amounts. Western Area
officials indicated that three past due consignee accounts were overstated by a total of
$132,924, and Eastern Area officials stated that two were overstated by a total of
$2,040. In addition, area officials stated they collected some past due accounts during
our audit, and those accounts should not be reported as recoverable revenue. Some
area officials also disputed the total number of existing agreements, stating that local
officials had closed some agreements. Management’s comments, in their entirety, are
included in Appendix H.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations in the report. For the three past due
accounts that Western Area officials indicated are overstated, they provided no
documentation indicating that consignees paid for the stamp consignments or returned
the stamp stock to the Postal Service. For the two consignees in the Eastern Area,
documentation from Headquarters Retail Access Channels supported the past due
amounts we reported as recoverable revenue.

We consider past due amounts collected during our audit as recoverable revenue loss.
We also consider agreements that local officials terminated after December 2004 still
open because local officials did not have the authority to award, modify, or terminate
local SoC agreements from that time forward.

We will report $817,012 in recoverable revenue loss and $51,693 in unrecoverable loss
in our Semiannual Report to Congress. The OIG considers all the recommendations
significant, and therefore requires OIG concurrence before closure. Consequently, the
OIG requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation the recommendations can be closed.




                                            3
Local Stamps on Consignment                                                  MS-AR-08-003
 Programs



We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Robert Mitchell,
Director, Sales and Service, or me at (703) 248-2100.

 E-Signed by Tammy Whitcomb
ERIFY authenticity with ApproveI




Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Lynn Malcolm
    Janet L. Webster
    Harry Guey-Lee
    Katherine S. Banks




                                           4
Local Stamps on Consignment                                                  MS-AR-08-003
 Programs


                      APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The local SoC programs allowed local businesses to sell stamps, which the Postal
Service had consigned to them, to customers. Postal Service area and district officials
administered these programs through a delegation of authority to award, modify, and
terminate stamp consignment agreements granted to managers, Administrative
Services, by the Vice President, Purchasing and Materials, in December 1994.

Despite instructions from Postal Service’s senior management from 2004 through 2007,
Retail Access Channels officials did not terminate all local SoC agreements and
properly account for stamp shipments to consignees. Postal Service records indicate
local SoC programs generated $2.97 million and $25.3 million revenue in FYs 2007 and
2006, respectively.

              Amounts Recorded in the Local Stamps on Consignment
                              Revenue Account

                        FY 2007       FY 2006         FY 2005         FY 2004
    Area Offices         Actual        Actual          Actual          Actual
   Capital Metro          $329,262      $968,783        $372,417      $1,196,141
   Eastern                 220,451     2,631,900       6,287,706       6,083,464
   Great Lakes              67,523     1,057,819       2,573,279       3,332,174
   New York Metro          151,755       383,497         603,445         598,203
   Northeast               267,915     2,873,801       5,150,803       3,513,544
   Pacific                 740,869     1,891,915       6,686,808       3,406,718
   Southeast                98,248       565,379       3,711,786       5,281,288
   Southwest               297,892       586,337       6,919,553       8,989,670
   Western                 793,597    14,365,385      16,008,640      19,194,925
   TOTAL                $2,967,512 $25,324,816       $48,314,437 $51,596,127
                Source: Headquarters Retail Access Channels Officials

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine whether Retail Access Channels officials terminated
all local SoC agreements and properly accounted for stamp shipments to consignees.

Our scope included all local SoC agreements and transactions from FY 2005 through
December 2007 (first quarter of FY 2008). We limited our scope to 79 of the 80 Postal
Service performance clusters because the Appalachian performance cluster did not
respond to our information request. The Appalachian performance cluster recorded
$633,415 and $24,805 local SoC revenue in FYs 2006 and 2007, respectively.




                                           5
Local Stamps on Consignment                                                                      MS-AR-08-003
 Programs


To accomplish our objectives, we:

o Reviewed documentation pertaining to consignment shipments, payments, and
  stamp returns for the period FY 2005 through December 2007, for 79 of the 80
  Postal Service performance clusters nationwide.

o Interviewed headquarters Retail Access Channels officials to determine whether
  area and district officials have provided them with the documentation necessary to
  terminate local SoC agreements and collect the past due amounts that consignees
  owe the Postal Service.

o Selected four of the nine Postal Service area offices with the highest number of
  active local SoC agreements. We interviewed area retail and marketing officials to
  determine whether they have provided headquarters Retail Access Channels
  officials with the documentation necessary to terminate local SoC agreements and
  collect the past due amounts that consignees owe the Postal Service.

o Analyzed data obtained from the Retail Data Mart and discussed the results of our
  analysis with Postal Service officials. We relied on data from this system to conduct
  interviews and analyses. We did not directly audit the system, but discussed with
  Postal Service officials the relevance of the data to our audit work.

We conducted this performance audit from May 2007 through March 2008 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management officials on January 10 and 22, 2008,
and included their comments where appropriate.

PRIOR AUDIT COVERAGE

Review of the Stamps on Consignment Program (Report Number DR-AR-07-003, dated
March 31, 2007). Postal Service officials properly accounted for stamp inventory under
consignment with American Banknote Company (ABN). However, ABN deducted some
unapproved transactions from their stamp accountability.4 The audit identified $310,608
in questioned costs and $67,337 in unrecoverable revenue.

We recommended that management assess the need to adjust ABN’s accountability,
request ABN officials to follow key contract provisions, and develop an action plan to

4
 Accountable materials include postal items such as postage stamps, stamped envelopes and postal cards, blank
postal money order forms, or any unsold item awaiting destruction.




                                                       6
Local Stamps on Consignment                                                    MS-AR-08-003
 Programs


approve and process future adjustments to ABN’s stamp accountability. We also
recommended management request ABN officials to inform consignees of the
importance of signing for stamp shipments, explore ideas to encourage consignees to
make timely payments, and request ABN officials to pay the Postal Service for accounts
that are past due. We recommended that management coordinate with area delivery
supervisors to ensure delivery scanning, require signature confirmation training for
delivery personnel at postal facilities, and train delivery supervisors to monitor proof of
delivery errors. Management agreed with our findings, recommendations, and financial
outcomes, and planned initiatives to address the issues identified in this report.

Fiscal Year 2006 Financial Installation Audit – XXXXXX XXXXXXXX Station, Denver
Colorado (Report Number FF-AR-06-186, dated June 6, 2006). The report identified
$186,303 in interest lost due to uncollected revenue because unit management did not
require a local consignee to make payment until January 2006 for stamps valued at
$1.9 million received in June 2002. The station manager and unit supervisor stated
they were not aware that the local contract required the consignee to pay for original
and replenished stock within 30 days of receiving the stock. In addition, district
employees inappropriately renewed a multi-million dollar local contract for a consignee
in December 2005. Postal Service management had instructed local officials to
terminate local consignments agreements and incorporate them into the national SoC
program.




                                             7
Local Stamps on Consignment                                                  MS-AR-08-003
 Programs



                          APPENDIX B: DETAILED ANALYSIS

Terminating Agreements and Properly Accounting for Stamp Consignments

Retail Access Channels officials had not terminated 392 local SoC agreements.
Seventy-three of the 392 accounts owe the Postal Service $827,672 for stamp
consignments. The accounts for 71 of the 73 consignees have been inactive for at least
3 months, and they owe the Postal Service $817,012 for stamp consignments. The
other two consignees obtained stamp consignments from the Xxxxxxxxxx Post Office in
the Houston District on November 14 and December 10, 2007; they owe the Postal
Service $10,660. (See Appendices C and D.)

We could not determine whether the number of existing local SoC agreements and the
amounts consignees owe the Postal Service for stamp consignments, as shown in
Appendices C and D, are complete. We could not make this determination because
headquarters Supply Management and area and district officials did not maintain a
consolidated list of local SoC agreements, along with pertinent information. The Vice
President, Purchasing and Materials, delegated authority in December 1994 to Postal
Service managers, Administrative Services, to award, modify, and terminate stamp
consignment agreements. However, this delegation did not give officials guidance on
their responsibilities for local SoC programs.

Headquarters Retail Access Channels officials stated that local management
maintained individual contracts. Therefore, headquarters had to rely on area and
district officials for the documentation needed to collect the amounts that consignees
owe the Postal Service and to terminate existing local SoC agreements. Retail Access
Channels officials stated that area and district officials did not always provide the
necessary documentation. They also stated that terminating local agreements and
collecting the amounts owed the Postal Service is laborious and time-consuming. They
are working with all area and district offices to pursue the outstanding consignment
funds from known local consignees and terminate the existing agreements.

In a December 2004 memorandum from the Vice President, Supply Management, to
area marketing and retail managers, the Vice President rescinded the delegation of
authority previously granted to Postal Service managers, Administrative Services, to
award, modify, and terminate local SoC agreements. The delegation of authority was
no longer necessary because the Postal Service had established a national SoC
program. The Vice President instructed local officials to incorporate their local SoC
programs into the national program.

In a letter dated June 21, 2005, the Vice President, Supply Management, delegated
authority to the Manager, Retail Access Channels, to issue contract termination letters
and letters of demand for reimbursement of financial shortages in order to close all




                                            8
Local Stamps on Consignment                                                     MS-AR-08-003
 Programs


existing local SoC agreements. The initial delegation of authority was valid through
June 25, 2006, but has been extended four times and will expire on March 31, 2008.

If officials do not terminate all local SoC agreements, the Postal Service will duplicate
efforts and expend resources to administer local SoC programs that should be
incorporated into the national SoC program. In addition, the longer consignees maintain
custody of stamp consignments, the less likely they will be to pay the Postal Service or
return the stamp stock. Officials could lose the manual documentation that supports
transactions, or they might not pursue the collection of past due accounts. Further, the
longer consignees’ past due amounts remain unpaid, the more interest income the
Postal Service forfeits.

Since we initiated our audit on May 17, 2007, Postal Service officials have collected
$127,535 from 47 past due accounts. (See Appendix E.) However, as we previously
stated, 71 existing accounts owing the Postal Service $817,012 for stamp consignments
have been inactive for at least 3 months. The $817,012 that these inactive accounts
owe to the Postal Service is recoverable revenue loss, and we will report it in our
Semiannual Report to Congress.

We also computed forfeited interest of $51,693 between January 1, 2006, and
December 31, 2007, for one past due account that has owed the Postal Service
$417,600 since January 2001. The $51,693 in forfeited interest is unrecoverable
revenue loss, and we will report it in our Semiannual Report to Congress. (See
Appendix F.)

Stamps on Consignment Revenue Account Was Overstated

RAs incorrectly recorded $1.6 million in FY 2007 and $3.64 million in FY 2006 in the
account used by the Postal Service to track revenue from the local SoC programs.
These transactions do not pertain to local SoC programs and should have been
recorded in other accounts. Consequently, the local SoC revenue account was
overstated by those amounts in those 2 years. (See Appendix G.)

District and unit officials stated that RAs incorrectly recorded transactions related to AIC
XXX, Postage Stock Sales, in AIC XXX, SoC Replenishment Sales. In addition, officials
stated they identified a system-wide deficiency that resulted in incorrect reporting.
When RAs entered transactions for AIC XXX, Stamps by Mail, the screen on the POS
ONE system gave them two choices. When RAs selected the correct option, the
transaction was recorded in AIC XXX. However, when RAs selected the other option,
the transaction was incorrectly recorded in AIC XXX. Headquarters Retail Access
Channels and Finance officials worked together to deactivate AIC XXX on April 27,
2007, by upgrading the POS ONE system software. This upgrade eliminated the
incorrect option, so area and district officials can no longer record transactions in AIC
XXX.




                                             9
Local Stamps on Consignment                                                                         MS-AR-08-003
 Programs


Postal Service policies and procedures require retail personnel to record transactions in
the proper accounts.5 Field unit managers are responsible for reviewing supporting
documentation for all financial transactions and ensuring that the transactions are
properly reported. If officials do not properly record transactions, Postal Service
accounting records will reflect inaccurate information.




5
 Handbook F-1, Post Office Accounting Procedures, sets forth the Postal Service’s policies and procedures to
ensure consistent accounting practices and proper financial reporting by field units.




                                                        10
Local Stamps on Consignment                                               MS-AR-08-003
 Programs


                          APPENDIX C: EXISTING LOCAL
                      STAMPS ON CONSIGNMENT AGREEMENTS

                                                    Total Number
                                                     of Existing
                                Area Offices         Agreements

                              Capital Metro             15
                              Eastern                  198
                              Great Lakes               20
                              New York                  13
                              Northeast                 22
                              Pacific                   10
                              Southeast                 18
                              Southwest                 22
                              Western                   74

                               TOTAL                392
                   Source: OIG analysis of Postal Service documentation




                                               11
 Local Stamps on Consignment                                               MS-AR-08-003
  Programs


                   APPENDIX D: PAST DUE CONSIGNEE ACCOUNTS

                                      Amounts                          Amounts Owed
                    Total Number      Owed by        Amounts Owed      by Inactive and
                     of Past Due      Inactive         by Active            Active
Area Offices          Accounts       Consignees       Consignees        Consignees

Capital Metro              1                $3,675                              $3,675
Eastern                    21               80,233                              80,233
Great Lakes                 7               12,737                              12,737
New York                    6               15,010                              15,010
Northeast                  7                33,931                              33,931
Pacific                     1                1,665                               1,665
Southeast                  11               25,518                              25,518
Southwest                   6              423,820           $10,660           434,480
Western                    13              220,423                             220,423

    TOTAL                73               $817,012            $10,660         $827,672
                    Source: OIG analysis of Postal Service documentation




                                           12
Local Stamps on Consignment                                               MS-AR-08-003
 Programs


                        APPENDIX E: CONSIGNEE ACCOUNTS
                            COLLECTED DURING AUDIT

                                           Total
                                         Number of    Total Amount
                       Area Offices      Accounts       Collected

                   Capital Metro                2             $4,680
                   Eastern                      6             12,684
                   Great Lakes                  1                780
                   New York                     2              4,680
                   Northeast                    6             30,900
                   Pacific                      5             22,323
                   Southeast                    7              9,779
                   Southwest                    0                  0
                   Western                     18             41,709

                        TOTAL                47             $127,535
                   Source: OIG analysis of Postal Service documentation




                                          13
Local Stamps on Consignment                                                   MS-AR-08-003
 Programs



           APPENDIX F: CALCULATION OF UNRECOVERABLE REVENUE

We identified $51,693 in unrecoverable revenue loss in forfeited interest attributable to
one consignee between January 1, 2006, and December 31, 2007. This consignee has
owed the Postal Service a total of $417,600 for stamp consignments since January
2001.

We made the following assumptions in our calculation.

                              Postal Service’s Cost of Borrowing

                                   Dates                      Interest Rate

           December 7 through December 31, 2007                    4.50%
           April 27 through December 6, 2007                       5.00%
           January 1, 2006, through April 26, 2007                 5.25%

  Source: Postal Service Headquarters Finance documentation

Forfeited interest was calculated using the formula “(1 + Postal Service's Cost of
Borrowing (x/365) * consignment amount) - consignment amount,” where “x” was the
number of days the payment was past due.

The forfeited interest calculation was compounded and applied to the consignment
amount between January 1, 2006, and December 31, 2007.

We will report $51,693 in unrecoverable revenue loss in our Semiannual Report to
Congress.




                                              14
Local Stamps on Consignment                                               MS-AR-08-003
 Programs



               APPENDIX G: AMOUNTS INCORRRECTLY RECORDED
             IN THE STAMPS ON CONSIGNMENT REVENUE ACCOUNT

                 Area Office         FY 2006              FY 2007
             Capital Metro              $888,341               $179,873
             Eastern                      70,268                130,488
             Great Lakes                 320,017                 40,583
             New York Metro                4,840                  2,771
             Northeast                   980,344                267,915
             Pacific                     634,257                523,600
             Southeast                     7,498                 71,919
             Southwest                   466,527                271,888
             Western                     263,941                110,797
                    TOTAL             $3,636,033             $1,599,834

           Source: OIG analysis of Postal Service documentation




                                         15
Local Stamps on Consignment                           MS-AR-08-003
 Programs


                      APPENDIX H. MANANGEMENT’S COMMENTS




                                   16
Local Stamps on Consignment              MS-AR-08-003
 Programs




                              Redacted




                              17
Local Stamps on Consignment        MS-AR-08-003
 Programs




                              18
Local Stamps on Consignment        MS-AR-08-003
 Programs




                              19
Local Stamps on Consignment        MS-AR-08-003
 Programs




                              20
Local Stamps on Consignment        MS-AR-08-003
 Programs




                              21
Local Stamps on Consignment        MS-AR-08-003
 Programs




                              22
Local Stamps on Consignment        MS-AR-08-003
 Programs




                              23
Local Stamps on Consignment        MS-AR-08-003
 Programs




                              24
Local Stamps on Consignment        MS-AR-08-003
 Programs




                              25
Local Stamps on Consignment        MS-AR-08-003
 Programs




                              26
Local Stamps on Consignment        MS-AR-08-003
 Programs




                              27
Local Stamps on Consignment        MS-AR-08-003
 Programs




                              28
Local Stamps on Consignment        MS-AR-08-003
 Programs




                              29
Local Stamps on Consignment        MS-AR-08-003
 Programs




                              30
Local Stamps on Consignment        MS-AR-08-003
 Programs




                              31
Local Stamps on Consignment        MS-AR-08-003
 Programs




                              32
